                   U.S. Department of Agriculture

                      Office of Inspector General
                               Southwest Region




         Audit Report

    Management and Security of
    Economic Research Service
Information Technology Resources




                             Report No. 14099-1-Te
                                       March 2004
                  UNITED STATES DEPARTMENT OF AGRICULTURE

                                   OFFICE OF INSPECTOR GENERAL


                                        Washington, DC 20250




DATE:          March 31, 2004

REPLY TO
ATTN OF:       14099-1-Te

SUBJECT:       Management and Security of Economic Research Service
               Information Technology Resources

TO:            Susan Offutt
               Administrator
               Economic Research Service

ATTN:          Paul Chan
               Director
               Information Services Division


This report presents the results of the subject audit. Your response to the official draft report,
dated March 30, 2004, is included in its entirety as exhibit A with excerpts and the Office of
Inspector General’s position incorporated into the Findings and Recommendations section of the
report. Your response contained sufficient justification to reach management decisions on all
recommendations contained in the report.

Please follow Departmental and your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer, Director, Planning and
Accountability Division. Final action on the management decisions should be completed within
1 year of the date of the management decisions to preclude being listed in the Department’s
annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
audit. If you have any questions, please contact me at 720-6945, or have a member of your staff
contact Richard J. Davis, Director, Administration and Finance Division, at 720-1918.



/s/ R. W. Young
ROBERT W. YOUNG
Assistant Inspector General
  for Audit
Executive Summary
Management and Security of Economic Research Service Information Technology
Resources (Audit Report No. 14099-1-Te)

Results In Brief   Effective management and security of information technology (IT) resources
                   have become increasingly important to the U.S. Department of
                   Agriculture’s mission, especially as the Department makes more programs
                   and information available over the Internet. In our continuing effort to
                   examine Information System Security Programs (ISSP) throughout the
                   Department, we audited the management and security of Economic Research
                   Service’s (ERS) IT resources.

                   Specifically, our objectives were to (1) assess the overall management of
                   ERS’ ISSP, (2) determine the adequacy of security over agency networks,
                   and (3) determine if adequate logical and physical access controls existed to
                   protect computer resources, including application and system software,
                   against unauthorized modification, disclosure, loss, or impairment.

                   As the chief source of the Department’s economic research and information,
                   ERS manages a large volume of data, some of it sensitive. For example, its
                   computer systems contain social security numbers and farm income and
                   expenditure records belonging to individuals. Protecting such confidential
                   information from cyber intruders must be a top priority for management and
                   staff.

                   We found that ERS needs to strengthen its ISSP by establishing controls and
                   formal policies for oversight of security planning, periodic review of security
                   controls, administration of IT security tools, and logical and physical access.

                   Foremost, insufficient security planning and oversight created an unstable
                   foundation for the agency’s ISSP. Although the Office of the Chief
                   Information Officer had waived the requirement to submit agency security
                   plans in 2002, agencies still were required to ensure that all weaknesses
                   identified in the 2001 security plan reviews were corrected. However, we
                   found that ERS had not updated its 2001 security plan to incorporate all
                   requirements. Furthermore, the agency had not implemented all of its
                   security plans to comply with Federal regulations. For example, ERS had not
                   implemented a formal computer security training program, obtained security
                   clearances for employees in sensitive positions, established a formal incident
                   response policy, or completed and tested a contingency plan.

                   If it had routinely reviewed its ISSP, ERS could have discovered and
                   remedied many of the flaws we identified in its security plan and access
                   control procedures. However, ERS had not complied with Federal
                   information resource policies, which require agencies to conduct annual
                   security reviews and perform risk analyses at least every 3 years. ERS had

USDA/OIG-A/14099-1-Te                                                                      Page i
                   no formal program for periodically evaluating its security policies and
                   conducting risk assessments to determine the extent of potential risks and
                   threats to its IT resources.

                   Inadequate administration of IT security tools also left ERS systems open to
                   malicious attacks, a material control weakness that requires additional
                   management oversight. Our vulnerability scan of the agency’s computer
                   systems disclosed a large number of risk indicators that could be exploited by
                   cyber attackers. While ERS took immediate action to remedy some of the
                   weaknesses we identified in our audit, it had not responded aggressively to
                   other security vulnerabilities discovered 10 months earlier by its own
                   vulnerability scan.

                   Finally, ERS’ logical and physical access controls did not provide optimum
                   protection against unauthorized modification, disclosure, loss, or impairment
                   of IT resources. We found that computer access lists had not been updated to
                   reflect current users, controls over shared or generic accounts had not been
                   established, users could transmit sensitive data through unsecured remote
                   access methods, settings for password uniqueness and logon attempts did not
                   meet Departmental guidelines, and cleaning staff and other unauthorized
                   individuals had physical access to sensitive areas and equipment.

Recommendations
In Brief           We recommend that ERS plan and/or implement a formal training program,
                   background screening of all individuals in sensitive positions, a formal
                   incident response policy, and a contingency plan that is approved by senior
                   management and tested annually. We further recommend that the agency
                   establish formal procedures for periodic review of security controls and risk
                   assessments.

                   Additionally, we recommend that ERS take immediate corrective action to
                   mitigate all high- and medium-risk vulnerabilities, and that it establish
                   policies to strengthen network security. We recommend that these policies
                   address (1) proper scanning procedures to detect all network vulnerabilities,
                   (2) proper configuration of computer access security settings, (3) a
                   configuration management program, (4) modem security, (5) routine and
                   timely review of firewall configuration, and (6) logical and physical access
                   controls, including controls over computer access lists, accounts, and
                   sensitive areas and equipment.

Agency Response
                    In a letter dated March 30, 2004, ERS concurred with all of the findings and
                    recommendations and provided proposed actions and completion dates for
                    each recommendation. (See exhibit A.)




USDA/OIG-A/14099-1-Te                                                                     Page ii
OIG Position
                    We accept the management decisions for all of the recommendations
                    contained in the report. For final action, ERS needs to provide the Director,
                    Planning and Accountability Division, Office of the Chief Financial Officer
                    (OCFO/PAD), documentation as outlined in the Office of Inspector
                    General (OIG) Position sections of the report.




USDA/OIG-A/14099-1-Te                                                                    Page iii
Abbreviations Used In This Report

ADP                 Automated Data Processing
DM                  Departmental Manual
DR                  Departmental Regulations
ERS                 Economic Research Service
ISD                 Information Services Division
ISSP                Information Systems Security Program
ISSPM               Information Systems Security Program Manager
IT                  Information Technology
LAN                 Local Area Network
NIST                National Institute of Standards and Technology
OCIO                Office of the Chief Information Officer
OCFO/PAD            Office of the Chief Financial Officer, Director,
                      Planning and Accountability Division
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
SP                  Special Publication
USDA                U.S. Department of Agriculture
WAN                 Wide Area Network




USDA/OIG-A/14099-1-Te                                                  Page iv
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used In This Report......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. ERS Has Not Ensured Compliance With Federally Mandated Security Guidelines
                 and Is Lacking In Its Overall Management of IT Resources................................. 3

        Finding 1             ERS’ Security Plan Was Incomplete and Not Fully Implemented ......................... 3
                                 Recommendation No. 1.................................................................................... 9
                                 Recommendation No. 2.................................................................................... 9
                                 Recommendation No. 3.................................................................................. 10
                                 Recommendation No. 4.................................................................................. 10
                                 Recommendation No. 5.................................................................................. 11
        Finding 2             ERS Needs a Formal Program to Periodically Review Security Controls............ 11
                                 Recommendation No. 6.................................................................................. 12
                                 Recommendation No. 7.................................................................................. 13

    Section 2. Network Security ........................................................................................................... 14

        Finding 3             Vulnerabilities Expose ERS Systems to the Risk of Attacks................................ 14
                                  Recommendation No. 8.................................................................................. 19
                                  Recommendation No. 9.................................................................................. 19
                                  Recommendation No. 10................................................................................ 20
                                  Recommendation No. 11................................................................................ 20
                                  Recommendation No. 12................................................................................ 21
                                  Recommendation No. 13................................................................................ 21

    Section 3. Access Controls .............................................................................................................. 22

        Finding 4             ERS Needs to Strengthen Its Access Controls ...................................................... 22
                                 Recommendation No. 14................................................................................ 26
                                 Recommendation No. 15................................................................................ 26
                                 Recommendation No. 16................................................................................ 27
                                 Recommendation No. 17................................................................................ 27

Scope and Methodology........................................................................................................................ 28

Exhibit A – Agency Response .............................................................................................................. 29




USDA/OIG-A/14099-1-Te                                                                                                                     Page v
Background and Objectives
Background                             Information security, improving the overall management of information
                                       technology (IT) resources, and the transition to electronic business
                                       (e-Government) have emerged as top priorities within the U.S. Department
                                       of Agriculture (USDA). As technology enhances our ability to share
                                       information instantaneously among computers and networks, it also has
                                       made organizations more vulnerable to unlawful and destructive penetration
                                       and disruptions. These vulnerabilities pose a threat to the sensitive and
                                       critical operations of the Economic Research Service (ERS).

                                       Various laws have emphasized the need to protect agencies’ sensitive and
                                       critical data, including the Privacy Act of 1974, the Computer Security Act
                                       of 1987,1 and the Paperwork Reduction Act of 1995. Responsibilities
                                       regarding information security were reemphasized in the Clinger-Cohen Act
                                       of 1997 and Presidential Decision Directive 63, Policy on Critical
                                       Infrastructure Protection.      Additionally, the Government Information
                                       Security Reform Act1 enacted on October 30, 2000, essentially codifies the
                                       existing requirements of the Office of Management and Budget (OMB)
                                       Circular A-130.2

                                       OMB Circular A-1302 establishes policy for the management of Federal
                                       IT resources. The policy requires security commensurate with the risk and
                                       magnitude of the harm resulting from the loss, misuse, or unauthorized
                                       access to, or modification of information. The policy also requires
                                       assignment of security responsibility, security plans, risk assessments, and
                                       system certifications to lessen the risk and magnitude of damage to
                                       information.

                                       Considerable guidance on information security also has been developed. The
                                       National Institute of Standards and Technology (NIST) has issued numerous
                                       Federal Information Processing Standards, as well as a comprehensive
                                       description of basic concepts and techniques in Special Publication (SP)
                                       800-12, An Introduction to Computer Security: The NIST Handbook, dated
                                       October 1995, and SP 800-14, Generally Accepted Principles and Practices
                                       for Security Information Technology Systems, dated September 1996.

                                       Finally, Departmental Manual (DM) 3140-1.1, Management ADP Security
                                       Manual, dated July 19, 1984, also provides standards, guidelines, and
                                       procedures for the development and administration of automated data
                                       processing (ADP) security programs mandated by Departmental
                                       regulations (DR).


1
    Federal Information Security Management Act of 2002 replaced Government Information Security Reform Act and Computer Security Act of 1987.
2
    OMB Circular A-130, appendix III, Security of Federal Automated Information Resources, dated November 30, 2000.

USDA/OIG-A/14099-1-Te                                                                                                                    Page 1
                    Located in Washington, D.C., and staffed by about 450 employees, ERS is
                    the main source of economic information and research for USDA. The
                    mission of ERS is to inform public and private decision makers on economic
                    and policy issues related to agriculture, food, natural resources, and rural
                    development. Three ERS divisions, Food and Rural Economics, Market and
                    Trade Economics, and Resource Economics, publish a wide variety of
                    research reports and periodicals. To support these activities, the Information
                    Services Division (ISD) manages and directs agencywide IT and
                    communication activities by building and maintaining powerful analytical
                    and communications environments as well as data dissemination systems to
                    deliver agency products.

                    ERS’ IT resources include a local area network (LAN) and two mission
                    business systems, systems A and B. The LAN consists of workstations and
                    servers that provide employees with office software, Internet access, and
                    e-mail. While some sensitive data files reside on the LAN, most of the
                    information is obtained from public sources, such as universities, State
                    governments, other Federal agencies, and foreign governments, and typically
                    pertains to crops, acreage, yield, cost and returns, situation and outlooks, and
                    farm labor. Systems A and B, however, contain more sensitive information,
                    including social security numbers and farm income and expenditures data
                    tied to individuals. To protect the integrity and security of these computer
                    systems, ERS uses logical access controls, such as computer passwords, and
                    physical security measures to prevent incidental or malicious damage to its
                    IT resources.

                   While the Internet was designed as an open system with no regard for
                   security, new security standards are continually being developed, and
                   safeguards such as encryption, data backup procedures and controls, network
                   intrusion detection systems, and disaster recovery and contingency planning
                   can be employed to afford some degree of security.

Objectives         The objectives of this audit were to (1) assess the overall management of
                   ERS’ Information Systems Security Programs (ISSP), (2) determine the
                   adequacy of security over agency networks, and (3) determine if adequate
                   logical and physical access controls exist to protect computer resources,
                   including application and system software, against unauthorized
                   modification, disclosure, loss, or impairment.




USDA/OIG-A/14099-1-Te                                                                        Page 2
Findings and Recommendations
Section 1. ERS Has Not Ensured Compliance With Federally Mandated Security
Guidelines and Is Lacking In Its Overall Management of IT Resources

                    As the foundation of USDA ISSP, security planning and management reflect
                    senior management’s commitment to addressing security risks. Without a
                    well-designed program, an agency’s security controls may be inadequate or
                    inconsistently applied, and employee responsibilities may be unclear,
                    misunderstood, and improperly implemented.

                    Through the Computer Security Act of 1987, Congress called for
                    establishing minimum acceptable security practices for Federal computer
                    systems. The Computer Security Act of 1987 requires agencies to identify
                    and protect systems containing sensitive information and calls for a
                    computer standards program and security training.              Accordingly,
                    OMB Circular A-1302 established a minimum set of controls for agencies’
                    automated information security programs, including assignment of security
                    responsibility, security planning, periodic review of security controls, and
                    management authorization of systems to process information.

                    Based on our review of ERS’ security program, we concluded that the
                    agency needs to improve its management of IT resources, and ensure
                    compliance with existing Federal requirements for managing and securing
                    IT resources. Specifically, ERS has not adequately planned for network
                    security and conducted the necessary risk assessments of its network. We
                    attributed these weaknesses to a need for additional management oversight.
                    As a result, ERS’ lack of compliance is a material internal control weakness,
                    and its ability to accomplish its mission may be jeopardized if it cannot
                    properly manage its IT infrastructure.



Finding 1           ERS’ Security Plan Was Incomplete and Not Fully Implemented

                    ERS’ security plan did not meet federally mandated security requirements.
                    Although the Office of the Chief Information Officer (OCIO) had waived
                    the requirement to submit agency security plans in 2002, agencies still were
                    required to ensure that all weaknesses identified in the 2001 security plan
                    reviews were corrected. However, at the time of our review, ERS had not
                    updated its 2001 security plan to incorporate all security requirements and
                    had not implemented some of its security plan. These conditions existed
                    because ERS had not assessed its ISSP and not implemented controls to
                    ensure that security planning met requirements. As a result, ERS had no
                    assurance that its security planning adequately protected its IT resources.




USDA/OIG-A/14099-1-Te                                                                     Page 3
                                    OMB Circular A-1302 states that security plans should establish rules for
                                    employee behavior, a training program for computer security, personnel
                                    controls, an incident response policy, a contingency program, technical
                                    security controls, and system interconnectivity rules.

                                    We reviewed ERS’ fiscal year 2001 security plan and found that many of
                                    the policies it prescribed had not been implemented. For example,
                                    ERS’ security plan established policies for security awareness training,
                                    screening individuals, incident handling, and contingency planning. At the
                                    time of our review, however, ERS had not implemented a formal computer
                                    security training program, obtained security clearances for employees in
                                    sensitive positions, established a formal incident response capability, or
                                    completed and tested a contingency plan.

                                    Training

                                    While the ERS security plan addressed computer security awareness
                                    training, ERS had not provided that training to all employees with access to
                                    the agency’s computer system. ERS also had not implemented a formal
                                    training program to include controls to ensure that employees receive
                                    specialized training commensurate with their responsibilities.

                                    Consequently, ERS had not complied with the Computer Security Act
                                    of 1987, which directs all agencies to provide mandatory periodic training in
                                    computer security awareness and accepted computer security practices for
                                    all employees who manage, use, or operate Federal computer systems within
                                    or under the supervision of that agency. OMB Circular A-1302 requires that
                                    agency security plans establish controls to ensure that all individuals receive
                                    appropriate training in how to fulfill their computer security responsibilities
                                    before they are allowed to access the system. Such training may vary from a
                                    notification at the time of access to formal instruction. Federal regulations3
                                    require Federal agencies to provide mandatory training as set forth in
                                    NIST’s guidance.4 Further, OCIO5 established guidance that requires all
                                    Department agencies and staff offices to develop, organize, implement, and
                                    maintain an IT system’s security awareness training program to ensure the
                                    security of Department information and IT resources. The guidance also
                                    requires Department and staff offices to conduct this formal training at least
                                    annually.

                                    To determine if agency personnel had received both kinds of required
                                    training, we took a judgmental sample of the 12 ERS employee personnel
                                    files with significant administrative responsibilities over the agency’s

3
  Title 5, Code of Federal Regulations, section 903.301, revised January 1, 2001.
4
  NIST SP 800-16, Information Technology Security Training Requirements: A Role- and Performance-Based Model, dated April 1998.
5
  OCIO CS-015, Cyber Security Guidance on Computer Security Awareness Training Programs, dated April 3, 2002.


USDA/OIG-A/14099-1-Te                                                                                                             Page 4
                                      IT resources. We found that none of the 12 files contained evidence to
                                      document that computer security awareness training had occurred. While
                                      6 of the 12 employees had not received any kind of training, the other 6 had
                                      received some specialized training. However, ERS last provided specialized
                                      training to those employees in 1997.

                                      We were told that ERS provides security awareness information to its
                                      employees through security brochures, presentations, the Intranet, and mass
                                      e-mails. In regard to specialized training, ERS provides job-specific training
                                      to its employees when new projects are being implemented and occasionally
                                      when employees request training. However, ERS should implement a
                                      formal training program to ensure that all employees who use computer
                                      systems receive mandatory annual security awareness training and
                                      employees who manage computer systems receive appropriate training in
                                      how to fulfill their responsibilities.

                                      Screening Individuals

                                      Although the ERS security plan mentioned employee screening, it did not
                                      provide any specific guidelines for determining whether a particular
                                      individual was suitable for a given position.

                                      OMB Circular A-1302 requires that agency security plans establish
                                      personnel controls for screening individuals who are authorized to bypass
                                      significant technical and operational security features of computer systems,
                                      commensurate with the risk and magnitude of harm they could cause. Such
                                      screening must occur prior to authorizing an individual to bypass controls,
                                      and periodically thereafter. According to NIST guidance,6 background
                                      screening helps determine whether an individual is suitable for a given
                                      position and that, particularly within the Government, periodic rescreening
                                      of personnel can identify signs of possible illegal activity. Federal
                                      regulations7 state individuals receiving an appointment made subject to an
                                      investigation must undergo a background investigation initiated before
                                      appointment or at most within 14 calendar days of placement in the position.
                                      Further, agencies may require employees to undergo periodic
                                      reinvestigations.

                                      To assess whether ERS was requiring employee background screening, we
                                      took a judgmental sample of the same 12 ERS employee personnel files
                                      reviewed for training. Six of those files belonged to employees hired within
                                      the last 3 to 4 years. Of the six new hires, two had a security clearance
                                      requested by ERS, two received security clearances while employed by
                                      another agency, and two were student interns that did not receive security
                                      checks. Additionally, 8 of the 12 employees were authorized to bypass

6
    NIST SP 800-12, An Introduction to Computer Security: The NIST Handbook, dated October 1995.
7
    Title 5, Code of Federal Regulations, section 731.106, revised as of January 1, 2003.


USDA/OIG-A/14099-1-Te                                                                                        Page 5
                                    security controls, but 5 of the 8 employees had undergone security clearance
                                    investigations between 9 and 30 years ago.

                                    We were told that, although background screening was not regularly
                                    performed until a few years ago, ERS had started an informal process to
                                    conduct background screening for all new hires. ERS’ human resources
                                    staff was also verifying that employees hired within the last 3 to 4 years had
                                    background checks, but that effort did not include employees hired prior to
                                    the past 4 years. Without proper background checks on its trusted users,
                                    ERS does not have assurance that those users can be entrusted with network
                                    resources and data under its control.

                                    Incident Handling

                                    The ERS security plan addressed incident handling, but ERS had not
                                    established a formal incident response policy to ensure that events were
                                    documented and shared with OCIO.

                                    OMB Circular A-1302 requires that agency security plans include an incident
                                    response policy to ensure that system users receive help when a security
                                    incident occurs and that information concerning common vulnerabilities and
                                    threats is shared with other organizations. NIST guidance8 states, when
                                    faced with an incident, an organization should be able to respond quickly in
                                    a manner that both protects its own information and helps to protect the
                                    information of others that might be affected by the incident. Further,
                                    NIST guidance9 states firewall administrators should examine the logs daily.
                                    Departmental guidance10 states all USDA agencies and staff offices shall
                                    establish and implement an internal incident response capability. Further,
                                    each agency will develop internal reporting procedures that define the
                                    actions that must be taken in responding to and reporting security incidents.
                                    At a minimum, internal procedures will include the agency reporting chain
                                    and require the involvement of the agency personnel and Departmental
                                    Information Systems Security Program Manager (ISSPM).

                                    We learned that all ERS employees are provided with a brochure that
                                    describes the agency’s incident response policy. According to the brochure,
                                    ERS uses a team concept in handling security incidents — that is, each team
                                    decides what constitutes an incident and how to handle it. However,
                                    ERS had not issued specific written instructions to teams for handling and
                                    reporting security incidents.




8
  NIST SP 800-18, Guide for Developing Security Plans for Information Technology Systems, dated December 1998.
9
  NIST SP 800-41, Guidelines on Firewalls and Firewall Policy, dated January 2002.
10
   DM 3500-001, USDA Computer Incident Response Procedures, dated October 25, 2001.


USDA/OIG-A/14099-1-Te                                                                                            Page 6
                    ERS also had not documented several recent security incidents. Apart from
                    receiving notification from OCIO of an attempted outside breach against its
                    firewall, ERS had never experienced a major security incident according to
                    ERS’ ISSPM. However, OCIO had notified ERS of three minor security
                    incidents within the last year, and ERS’ ISSPM reviewed the incidents and
                    took corrective action as deemed necessary. Those incidents included an
                    attempted buffer overflow, in which an intruder tried to gain control of an
                    ERS computer system by loading more data into a temporary storage unit
                    than it was intended to hold, and Internet Protocol addresses attempting to
                    penetrate the system. When we tried to validate how many security
                    incidents were reported by OCIO, ERS’ ISSPM could not supply any
                    documentation on the incidents and did not know how many incidents had
                    been reported.

                    Additionally, the ISSPM is responsible for reviewing the agency’s firewall
                    logs on a daily basis to monitor security incidents and sending the review
                    results to OCIO at least 3 times a week. However, we learned that these
                    reviews are not conducted if the ISSPM is not at work. The ISSPM will also
                    scan from outside the firewall using a commercially available software
                    product once a month and send the scan results to OCIO.

                    We concluded that, without a formal written incident response policy to
                    ensure that incidents are documented and shared with OCIO, ERS may not
                    be ready to protect its IT resources and assist in the protection of other
                    Federal computer systems in the event of a major security incident.

                    Contingency Planning

                    Our review further disclosed that ERS’ contingency plan, intended to ensure
                    adequate recovery of computer resources in the event of a disaster or other
                    major disruption in service, was incomplete and not properly applied.

                    OMB Circular A-1302 requires that agency security plans establish controls
                    to create and periodically test the agency’s ability to continue providing
                    service within a system based on the needs and priorities of system users.
                    According to NIST,6 contingency plans should be developed for restoring
                    critical applications, including arrangements for alternate processing
                    facilities in case the usual facilities are significantly damaged or cannot be
                    accessed. The plans should also include (1) an assessment of critical data
                    and operations to determine the importance and sensitivity of data and other
                    organizational assets, (2) an identification of minimum computer resources
                    needed to support critical operations, such as computer hardware, software,
                    and data files, (3) a policy on data and software backup procedures, and
                    (4) guidelines for mandatory training on employee responsibilities in
                    preventing, mitigating, and responding to emergency situations.


USDA/OIG-A/14099-1-Te                                                                      Page 7
                    Additionally, contingency plans should be kept up to date, approved by
                    senior management, and tested periodically to discover inevitable flaws.

                    First, we found that ERS had not identified and prioritized all of its critical
                    resources. For example, the agency’s security plan described the sensitivity
                    of information handled on system A, but it did not rate or describe the data
                    maintained on system B, which also contained confidential information.
                    However, ERS’ security plan did describe the computer hardware and
                    software used on the LAN to support these IT resources.

                    Further, we found that ERS’ contingency plan had not been updated,
                    approved by senior management, or tested. ERS’ ISSPM stated that the
                    contingency plan could not be tested until the agency secured and approved
                    a backup site for continuity support.

                    In addition to flaws with the contingency plan itself, our assessment
                    disclosed that ERS had not implemented appropriate data and program
                    backup procedures. Specifically, we found that ERS was not keeping its
                    wide area network (WAN) backup diskettes offsite. The ISSPM assumed
                    the backup diskettes were kept offsite. This assumption was corroborated by
                    an ERS WAN team member who stated that he took the backup diskettes
                    home in case a disaster prevented access to the bank vault across the street.
                    However, we found 12 weekly backup diskettes stored onsite in a fireproof
                    safe. We also validated that the team member did not take LAN backup
                    tapes home but only took a backup copy of the WAN software settings
                    home. After further discussion of the importance of storing backup data
                    offsite, ERS representatives agreed to keep the backup diskettes in an offsite
                    bank vault.

                    ERS also had not implemented adequate continuity controls over its physical
                    environment. Although the agency had a sophisticated electronic fire
                    protection system, including sprinkler heads, smoke detectors, heat
                    detectors, manual pull stations, security door override, remote monitor
                    alarm, tamper detection systems, and a building-wide alarm system,
                    ERS had inadequate controls in place to fully recover in the event of natural
                    disasters, such as floods or earthquakes. We noticed that water could leak
                    into or flood the LAN room because it contained a wet-pipe sprinkler
                    system. An ERS representative stated the LAN room has a water detector
                    that will sound an alert for leaks or floods. We requested, but ERS did not
                    provide, a floor plan showing the location of the water detectors.

                    We concluded that ERS had not fulfilled all contingency planning
                    requirements or taken steps to minimize and prevent potential damage and
                    interruption of its system by implementing adequate backup procedures and
                    environmental controls.



USDA/OIG-A/14099-1-Te                                                                       Page 8
Recommendation No. 1

                    Establish and implement controls to periodically assess the IT security
                    program to ensure that security planning meets USDA, OMB, NIST, and
                    other Federal requirements.

                    Agency Response. ERS concurs with this recommendation. ERS will
                    create a formal process to assess the IT security program through an annual
                    review of the current security plan before it is submitted to OCIO, USDA.
                    ERS plans to apply this review process to the 2004 submission of the
                    security plan. This review will be performed by agency Data Coordinators
                    and the Chief Information Officer.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with a copy of the documentation
                    detailing the formal process created for assessing the IT security program.

Recommendation No. 2

                    Establish and implement a formal training program, to include controls to
                    ensure that all employees who use computer systems receive mandatory
                    annual security awareness training and employees who manage computer
                    systems receive appropriate training in how to fulfill their responsibilities.

                    Agency Response. ERS concurs with this recommendation. USDA’s
                    OCIO has implemented an e-Government system that provides all
                    USDA employees with a number of basic training classes through the
                    Government-wide GoLearn program. ERS has begun to use this resource, as
                    directed by OCIO, to provide each employee with security training classes.
                    To improve tracking of employee training, USDA is in the process of
                    integrating a Learning Management System into the GoLearn system. The
                    Learning Management System will be operational in 2004 and integrated
                    into human resource systems to improve management of training.
                    ERS plans to utilize this system to track and document employee
                    participation and completion of training classes.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with documentation supporting
                    ERS’ utilization of the Learning Management System for tracking and
                    documenting employee training.




USDA/OIG-A/14099-1-Te                                                                      Page 9
Recommendation No. 3

                    Establish a formal screening policy to include controls to ensure that
                    individuals with significant security responsibilities are screened prior to
                    appointment or within 14 calendar days of placement in the position and
                    periodically rescreened.

                    Agency Response. ERS concurs with the recommendation. In
                    January 2003, ERS identified positions with significant security
                    responsibilities and submitted applications for security clearances for all
                    ISD personnel with major security responsibilities.         Many of these
                    applications are still pending for final approval. Additionally, position
                    descriptions for the covered positions have been revised to include the
                    requirement for security clearances, the level of clearance required, and the
                    reauthorization timeframe.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with a copy of its formal screening policy
                    outlining the controls to ensure employees with significant security
                    responsibilities are screened prior to appointment and periodically. In
                    addition, ERS needs to provide OCFO/PAD with a copy of the revised
                    position descriptions.

Recommendation No. 4

                    Establish a formal written incident response policy to include controls to
                    ensure that all security incidents are documented and shared with OCIO.

                    Agency Response. ERS concurs with this recommendation. By
                    October 1, 2004, ERS will create a policy for the review and documentation
                    of all security incidents. The log will record the incident and the date it is
                    forwarded to OCIO. ERS will only document significant incidents that are
                    unique or cause a serious threat to security.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with a copy of its formal incident
                    response policy outlining the controls to ensure that all security incidents are
                    documented and shared with OCIO.




USDA/OIG-A/14099-1-Te                                                                      Page 10
Recommendation No. 5

                    Establish and implement procedures, to include control measures, that
                    govern the preparation of a contingency plan to (1) identify and prioritize
                    critical operations and the resources supporting them, (2) contain backup
                    procedures and environmental controls, and (3) develop emergency priorities
                    to support the continuity of these operations. The contingency plan should
                    also be approved by senior management and tested annually.

                    Agency Response. ERS concurs with the recommendation. By
                    October 2004, ERS will review its existing Continuity of Operation Plan to
                    identify additional needs for contingency planning. ERS will modify the
                    Continuity of Operation Plan to include contingency plans for identifying
                    critical operations and necessary resources and current LAN backup
                    procedures for logging the movement of tapes from the central backup
                    system to offsite location. ERS also is making progress in preparing a
                    disaster recovery plan for critical systems by installing and testing recovery
                    systems onsite and at a remote location. ERS plans on conducting disaster
                    recovery tests twice each year and performing ongoing operations to keep
                    systems current.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with a copy of the revised Continuity of
                    Operation Plan and disaster recovery plan that has been tested and approved
                    by senior management.




Finding 2           ERS Needs a Formal Program to Periodically Review Security
                    Controls

                    ERS had no formal program for periodically evaluating its security policies
                    and conducting risk assessments to determine the extent of potential threats
                    and risks associated with its IT resources. Management had not established
                    controls to evaluate the security program for compliance with Federal
                    information resource policies and failed to hire skilled personnel to conduct
                    risk assessments. Therefore, the agency had no assurance that its current
                    IT security measures were adequate to protect its computer system and the
                    information it processes.

                    OMB Circular A-1302 requires agencies to conduct annual security reviews
                    and perform a risk analysis at each ADP site every 3 years, or when systems
                    undergo significant modification. In addition to OMB requirements,



USDA/OIG-A/14099-1-Te                                                                    Page 11
                                       Departmental guidance11 requires agencies to perform formal risk analyses.
                                       Further, Presidential Decision Directive 63 requires agencies to assess the
                                       risks to their networks and establish a plan to mitigate the identified risks.

                                       In addition, NIST guidance8 states that, because the security of a system may
                                       degrade as technology evolves or people and procedures change, periodic
                                       reviews provide assurance that security controls are functioning effectively
                                       and providing adequate levels of protection. Further, technical tools such as
                                       virus scanners, vulnerability assessment products (which look for known
                                       security problems, configuration errors, and the installation of the latest
                                       hardware/software patches), and penetration testing can assist in the ongoing
                                       review of system security measures. These tools, however, are no substitute
                                       for a formal management review at least every 3 years. OCIO guidance12
                                       mandates requirements for regular risk assessments using checklists
                                       designed to determine vulnerabilities on most common IT platforms and
                                       environments.

                                       ERS senior management has ultimate responsibility for security of the
                                       agency’s computer systems. However, ERS’ ISD Branch Chief stated that
                                       the agency had no official program for reviewing security policies and that
                                       no other audits or security reviews had occurred. He also stated that
                                       ERS had not budgeted for hiring a skilled person solely to conduct risk
                                       assessments. By implementing formal procedures for periodic reviews and
                                       conducting risk assessments, ERS would be able to determine if appropriate
                                       security measures have been implemented and if the level of risk associated
                                       with its IT resources is acceptable.

                                       Additionally, since it had not evaluated its security policies or conducted a
                                       risk assessment, ERS could not officially authorize its systems for operations
                                       and processing. We noted that the agency had not formally authorized its
                                       general support and application systems. NIST guidance8 states that a
                                       management official must authorize a system to operate and process
                                       information based on an assessment of management, operational, and
                                       technical controls.

Recommendation No. 6

                                       Establish and implement formal procedures for annual periodic reviews of
                                       management, technical, and operational controls, and conduct risk
                                       assessments every 3 years or when systems undergo significant
                                       modification.




11
     Departmental Manual 3140-1.1, Management of ADP Security Manual, dated July 19, 1984.
12
     OCIO CS-016, Cyber Security Guidance Regarding Risk Assessments and Security Checklists, dated July 19, 2002.


USDA/OIG-A/14099-1-Te                                                                                                Page 12
                    Agency Response. ERS concurs with the recommendation. ERS will
                    conduct its first annual review of management, technical, and operational
                    controls of its security systems in May 2004 during the security plan review
                    process. It will include the necessary procedures for establishing and
                    reviewing risks. ERS also has completed a preliminary risk assessment of
                    its WAN/LAN systems. A risk evaluation of the WAN/LAN systems, which
                    are the foundations of all systems and applications, will serve as an essential
                    part of any other critical system evaluations.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with a copy of its formal procedures for
                    annual periodic reviews of IT security controls and for conducting risk
                    assessments.

Recommendation No. 7

                    Establish and implement a process for managers to formally authorize the
                    adequacy of existing security for the computer systems they operate or
                    applications they develop. Computer systems and applications should be
                    reauthorized every 3 years or when systems undergo significant
                    modification.

                    Agency Response. ERS concurs with this recommendation. ERS will
                    create a process for managers to formally authorize the security of systems
                    or applications that are under their responsibility. The review will be part of
                    the preparation and review of the annual security plan. The policy describing
                    the process will be completed by the end of 2004.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with documentation detailing the process
                    for managers to formally authorize the adequacy of existing security.




USDA/OIG-A/14099-1-Te                                                                     Page 13
Section 2. Network Security

                                       Coupled with a strong security plan and management oversight, proper use
                                       of technical tools and resources can contribute to the overall security of an
                                       agency’s ISSP. To evaluate ERS’ systems, we used three commercially
                                       available software products that (1) tested for over 1,100 known
                                       vulnerabilities associated with various operating systems that use
                                       Transmission Control Protocol/Internet Protocol,13 (2) tested system policy
                                       settings in network operating systems, and (3) searched for modems within a
                                       set of telephone numbers to identify potentially unsecured carrier lines.



Finding 3                              Vulnerabilities Expose ERS Systems to the Risk of Attacks

                                       Our vulnerability scans of selected ERS systems disclosed risk indicators
                                       that could be exploited. We also found that system policy settings did not
                                       provide for optimum security and were not uniform throughout the agency.
                                       Many of these vulnerabilities occurred because ERS had not developed a
                                       configuration management program to ensure routine maintenance of all
                                       systems with recent security patches and other software updates. As a result,
                                       ERS systems and networks were vulnerable to cyber attacks. We consider
                                       the number of vulnerabilities identified to be a material internal control
                                       weakness that requires additional management oversight.

                                       OMB Circular A-1302 requires agencies to assess the vulnerability of
                                       information system assets, identify threats, quantify the potential losses from
                                       threat realization, and develop countermeasures to eliminate or reduce
                                       threats and potential losses.

                                       Transmission Control Protocol/Internet Protocol System Vulnerabilities

                                       Our vulnerability assessments of 103 network components disclosed
                                       203 high-risk, 636 medium-risk, and 1,456 low-risk vulnerabilities. The
                                       high- and medium-risk vulnerabilities, if left uncorrected, could allow
                                       unauthorized users to access critical and sensitive ERS data. Additionally,
                                       the large number of low-risk vulnerabilities we identified can be an
                                       indication that ERS needs to strengthen its system administration.




13
   Transmission Control Protocol/Internet Protocol is a series of protocols originally developed for use by the U.S. military and now used on the Internet as
the primary standard for the movement of data on multiple, diverse platforms.


USDA/OIG-A/14099-1-Te                                                                                                                            Page 14
                    Detailed below are examples of the high-risk vulnerabilities we identified.

                        •   Of the 203 high-risk vulnerabilities, 79 related to inadequate or
                            nonexistent passwords. For example, seven accounts were set to
                            allow access using a password that was the same as the administrator
                            user name. As the most trusted user on a system, the administrator
                            has complete control over the system and can perform any function.
                            Additionally, we detected 25 accounts with a blank password or no
                            required password. Depending on the accounts’ access privileges, an
                            attacker could use them to access other computers on the network,
                            including the data stored in those computers.

                        •   Three hosts had accessible default accounts that could be detected
                            through a remote administration program. When software
                            applications used to manage computer networks are left configured
                            with their original default settings, which are well known, intruders
                            are able to easily obtain or change system data and to gain
                            information about open connections with other systems. Under an
                            effective security policy, these accounts would be removed, renamed,
                            or, at minimum, have a difficult-to-guess password.

                    ERS officials stated that they scanned selected network servers on a monthly
                    basis using a scanning tool similar to ours. However, we discovered that the
                    agency was not using all of the scanning software’s functions. Depending
                    on the purpose of the scan, users of the software can select various scanning
                    policies to perform a range of tasks. Instead of using policies to detect
                    systems that were improperly configured or compromised by highly skilled
                    attackers, ERS used only the scan policy that identifies services running on
                    the machines connected to its network. While this policy did identify some
                    vulnerabilities, other significant risk indicators went undetected.

                    We also determined that ERS was not aggressively following up to eliminate
                    security vulnerabilities that had already been discovered on its systems. We
                    compared the results of scans conducted by ERS to the scans we performed.
                    On one system, we found that a high-risk vulnerability identified by ERS in
                    February 2002 still existed on that host 10 months later. Additionally, when
                    we followed up with ERS 3 months after conducting our scans in
                    December 2002, the agency had not begun mitigating the weaknesses we
                    identified because the ISSPM was busy with other priorities.




USDA/OIG-A/14099-1-Te                                                                    Page 15
                                        Network Operating System Policies

                                        Our detailed assessment of security over the ERS network operating system
                                        identified many access control weaknesses. To make our assessment, we
                                        used software that produced reports of access control lists, user account
                                        characteristics, password controls, and many other security features.

                                        Some of the weaknesses we identified in this area are detailed below.

                                             •    Of the accounts, 73 had passwords that never expired. According to
                                                  NIST guidance,14 passwords should be changed periodically.
                                                  Similarly, OCIO guidance15 requires passwords for all systems,
                                                  applications, and processes to be changed every 60 days for general
                                                  users. Passwords issued to system administrators, system managers,
                                                  and software engineers or those used for dial-in access are to be
                                                  changed every 30 to 45 days.

                                             •    All 11 administrator-equivalent accounts had passwords that never
                                                  expired, and the passwords for only 2 of those accounts had been
                                                  changed within the last 30 to 45 days. Further, 1 of the 11 accounts
                                                  had not been logged on in over a year.

                                             •    Of the 25 users, 7 with remote access settings enabled had passwords
                                                  that never expired, and those passwords had not been changed within
                                                  the last 30 to 45 days.

                                             •    Of the 595 user accounts on the system, 58 users had not logged in
                                                  within the last 90 days. Of these 58 accounts, 26 included the word
                                                  “Delete” in the full-name identifier, but the account remained on the
                                                  system. Further, 19 of the 58 accounts were enabled, even though
                                                  8 of them had not logged into the system in over a year.

                                             •    Of the accounts that existed on the ERS LAN, 39 were shared or
                                                  generic user accounts. Of the 39 accounts, 7 were still active even
                                                  though they had not logged into the system within the last 90 days.
                                                  Furthermore, NIST guidance6 states that these kinds of accounts
                                                  make it impossible for system administrators to track the actions of
                                                  users in the event that inappropriate or malicious activity occurs.
                                                  Likewise, OCIO guidance15 prohibits shared accounts by requiring
                                                  that each access, whether a user ID or process, be traceable to an
                                                  individual.



14
     NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information Technology Systems, dated September 1996.
15
     OCIO CS-013, Cyber Security Guidance Regarding Controlled Access Protection, dated March 6, 2002.


USDA/OIG-A/14099-1-Te                                                                                                                 Page 16
                                      We immediately communicated the results of our review of the network
                                      operating system to ERS management. Based on our findings, ERS took
                                      action to correct the weaknesses we identified. Specifically, ERS changed
                                      all nonexpiring passwords to expire every 35 days, eliminated dial-up access
                                      for the 25 users identified in our review, deleted 35 unused accounts, and
                                      disabled another 5 unused accounts from the ERS network.

                                      Modem Security

                                      ERS lacked a comprehensive modem listing, indicating lack of control over
                                      network gateways and noncompliance with regulations.

                                      The presence of unauthorized modems attached to network computers can
                                      undermine a well-thought-out security plan. For example, if a computer
                                      with an unauthorized modem is connected to an agency’s network, anyone
                                      with minimal computer skills and malicious intent can use the unsecured
                                      modem as a back door into the network. Thus, regulations16 require
                                      agencies to evaluate security measures in place on network gateways.
                                      Regulations17 also mandate that agencies conduct vulnerability and risk
                                      assessments of existing gateways at annual intervals.

                                      Although ERS officials recognized that some of the agency’s desktop
                                      computers had modems that connected to an Internet service provider
                                      instead of accessing the Internet through the Departmental network, they
                                      were unable to provide a complete inventory of modems within
                                      ERS’ network. ERS officials added that they had never scanned their
                                      system for these modems. We conducted a detailed assessment of over
                                      1,000 ERS telephone numbers to identify active modems and areas of
                                      inadequate security over modems on the network. Our assessment identified
                                      a total of 38 lines that could potentially have been modems. ERS officials
                                      noted that these were probably part of their dial-in modem bank but were
                                      still researching them at the end of our fieldwork. ERS should maintain an
                                      accurate list of all the modems on its network to ensure that they are
                                      properly configured and ensure that they are not used inappropriately to
                                      circumvent firewall and other network security measures it has in place.

                                      Configuration Management

                                      Our scans further revealed that ERS had not developed a configuration
                                      management program for its systems. Significant variations appeared in the
                                      high-risk vulnerabilities we identified, indicating that security patches were



16
     DR 3140-001, USDA Information Systems Security Policy, dated May 15, 1996.
17
     DR 3140-002, USDA Internet Security Policy, dated March 7, 1995.


USDA/OIG-A/14099-1-Te                                                                                      Page 17
                                      not consistently applied.18 Likewise, 100 of the 203 high-risk vulnerabilities
                                      we identified existed because the agency had not applied security patches
                                      and other software updates to its systems in a timely manner. Patches for
                                      36 of the 100 vulnerabilities had been available for over a year.

                                      Today more than ever, timely response to vulnerabilities is critical to
                                      maintain the operational availability, confidentiality, and integrity of
                                      IT systems. A configuration management program ensures that all systems
                                      are routinely maintained with recent security patches and other software
                                      updates. We concluded that a system configuration management program,
                                      including regularly scheduled and properly conducted vulnerability
                                      assessments and timely remediation of the risks discovered, would
                                      substantially enhance the security of ERS’ network operating systems.

                                      Firewall Configuration

                                      Finally, we reviewed ERS’ firewall configuration to determine if it was
                                      adequately protecting the network. Overall, we found that ERS had
                                      maintained its firewall adequately. However, we found several firewall rules
                                      that were either no longer needed or were not configured in the best interest
                                      of ERS network security. ERS had not established controls to conduct
                                      routine and timely reviews of firewall configuration.            Therefore,
                                      ERS’ network was exposed to risk of attack from Internet users.

                                      NIST guidance19 states firewall and security policies should be audited and
                                      verified at least quarterly. At a minimum, firewall policy can be verified by
                                      obtaining hardcopies of the firewall configurations and comparing these
                                      hardcopies against the expected configuration based on defined policy.

                                      ERS officials took immediate action on most of our concerns by either
                                      deleting or modifying firewall rules to improve security. However, the
                                      network officials accepted the risks posed by two of our concerns.
                                      Additionally, ERS officials informed us that they routinely reviewed the
                                      access logs generated by the firewall, but they only infrequently reviewed
                                      the firewall rules that protect the network.




18
   According to NIST guidance, security-related programming flaws are generally discovered only after a large number of users start using the software
and hackers and independent testers start attempting to compromise it. Once a programming flaw is discovered, the software manufacturer often releases a
piece of software to correct the flaw. This software is often called a patch, hot fix, or service pack.
19
   NIST SP 800-41, Guidelines on Firewalls and Firewall Policy, dated January 2002.


USDA/OIG-A/14099-1-Te                                                                                                                       Page 18
Recommendation No. 8

                    Ensure that corrective actions have been taken on all high- and medium-risk
                    vulnerabilities identified during our audit, track the vulnerabilities, and
                    certify that actions have been taken to remedy these vulnerabilities.

                    Agency Response. ERS concurs with this recommendation. By
                    June 2004, ERS will have completed the procedures to identify and track
                    all security vulnerabilities of its systems. OIG Recommendations
                    Nos. 9 through 13 provide more specific coverage of actions to be taken in
                    this regard. Under these specific recommendations, ERS will take corrective
                    actions as it judges necessary. Some vulnerabilities identified in the audit
                    cannot be corrected due to changes in IP address assignments. If a particular
                    vulnerability cannot be traced to a specific workstation or device, the agency
                    will not be able to make a correction. As with other issues, the agency will
                    evaluate the risk associated with a particular vulnerability and will take
                    appropriate actions based on the findings.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with documentation certifying that
                    appropriate corrective actions have been taken to remedy these
                    vulnerabilities.

Recommendation No. 9

                    Establish and implement a policy to use the proper scanning policy to detect
                    all network vulnerabilities and ensure that prompt action is taken to
                    eliminate noted vulnerabilities.

                    Agency Response. ERS concurs with the recommendation. ERS has
                    created a scanning policy that will be implemented in March 2004. The
                    policy specifies the types of scans to be conducted; scans will be conducted
                    monthly and activities to correct vulnerabilities will be tracked in a log.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with a copy of its scanning policy for
                    detecting and eliminating all network vulnerabilities.




USDA/OIG-A/14099-1-Te                                                                    Page 19
Recommendation No. 10

                    Establish and implement a policy outlining minimum computer access
                    security settings to include controls to ensure that settings have not been
                    misapplied.

                    Agency Response. ERS concurs with this recommendation. There are
                    various policies in place, but they are not comprehensive. ERS will
                    document existing policies for access security settings and will create a
                    process to review compliance with these policies. The process will provide
                    for timely review and correction of deficiencies and will be in place by the
                    end of 2004.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with documentation of computer access
                    security setting policies and process for timely reviewing compliance with
                    these policies.

Recommendation No. 11

                    Establish and implement a configuration management program to include
                    controls to ensure that the program is functioning as planned.

                    Agency Response. ERS concurs with this recommendation. ERS has
                    implemented a configuration management program that includes controls to
                    ensure that the program is functioning as planned. ERS participates in the
                    USDA program to license a system that provides centralized configuration
                    management and reporting. ERS has been utilizing the system to keep all
                    operating systems patched to avoid critical security vulnerabilities since
                    December 2003.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with documentation identifying the
                    configuration management program, including controls to ensure that the
                    program is functioning as planned.




USDA/OIG-A/14099-1-Te                                                                   Page 20
Recommendation No. 12

                    Establish and implement a remote access policy to include controls to
                    establish an accurate list of all modems on its network, ensure that they are
                    properly configured, make sure that they are not used inappropriately to
                    circumvent firewall and other network security measures it has in place, and
                    update the listing on a periodic basis.

                    Agency Response. ERS concurs with this recommendation. By
                    June 1, 2004, ERS plans to complete the inventory of all modems on its
                    network and will develop a policy to specify how and when modems are
                    authorized for connection to the network. There will be an annual review of
                    the configuration and usage of the modems. ERS has been incrementally
                    eliminating the use of modems from its network and will continue with this
                    effort.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with a copy of its remote access policy,
                    including controls to ensure that modems are not used inappropriately to
                    bypass network security.

Recommendation No. 13

                    Establish and implement a policy to include controls to conduct routine and
                    timely reviews of firewall configuration.

                    Agency Response. ERS concurs with this recommendation. ERS has
                    created a policy for quarterly reviews of the firewall configuration. The
                    review will focus on the adequacy of rules incorporated into the
                    configuration and the elimination of unnecessary rules. The first review was
                    completed during February 2004. The policy includes documenting all of
                    the existing rules and any actions taken during the review.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with a copy of its firewall review policy,
                    including controls to ensure that firewall rules are adequate and documented.




USDA/OIG-A/14099-1-Te                                                                    Page 21
Section 3. Access Controls

                    We assessed ERS’ logical and physical access controls to determine if they
                    adequately detected and prevented unauthorized entry to agency automated
                    information and computer systems. We found a significant number of
                    logical control weaknesses in the systems we tested, as well as problems
                    related to physical access.

                    OMB Circular A-1302 stresses management controls affecting IT users.
                    These controls help to protect operating systems and other software from
                    unauthorized modification and to protect the integrity, availability, and
                    confidentiality of information by restricting the number of users, and provide
                    protection from disclosure of information to unauthorized individuals.
                    NIST guidance6 defines access controls as physical controls, such as keeping
                    computers in locked rooms to limit physical access, and logical controls,
                    such as security software programs designed to prevent or detect
                    unauthorized access to sensitive files.



Finding 4           ERS Needs to Strengthen Its Access Controls

                    Although ERS had established procedures for requesting computer access
                    and reviewed user access lists, the agency had not reviewed its computer
                    access procedures to determine if they were adequate. ERS also had not
                    conducted a security assessment of logical and physical access controls to
                    determine if they met departmental guidelines. ERS had not established
                    controls to ensure compliance with Federal information resource policies
                    and failed to hire skilled personnel to conduct risk assessment. Therefore,
                    ERS had no assurance that its computer resources are protected against
                    unauthorized access.

                    OMB Circular A-1302 and Departmental guidance11 contain standards,
                    guidelines, and procedures for the development and administration of
                    agencies’ automated information security programs. Agencies are required
                    to establish controls to assure adequate security for all information they
                    process, transmit, or store. Further, agencies must review the security
                    controls in each system at least every 3 years, or when significant
                    modifications are made to the system; the scope and frequency of these
                    reviews must be commensurate with the acceptable level of risk for the
                    system. NIST guidance8 advises that periodic reviews provide assurance
                    that controls are functioning effectively and providing adequate levels of
                    protection. Further, NIST guidance14 states organizations should base access
                    control policies on the principle of least privilege, which states that users
                    should be granted access only to the resources they need to perform their



USDA/OIG-A/14099-1-Te                                                                    Page 22
                                      official functions, and organizations should carefully administer access
                                      controls.

                                      Logical Access

                                      We found a significant number of material logical access control weaknesses
                                      in the ERS systems we tested. We also found that ERS had not conducted
                                      periodic reviews to determine if its logical access controls were adequate to
                                      protect sensitive data. ERS’ ISD Branch Chief stated that there had been no
                                      other audits or security reviews at ERS, and that the agency had no official
                                      program for reviewing security policies.

                                      Our review disclosed that ERS’ lists of users authorized to access the LAN,
                                      the National Finance Center, and the National Information Technology
                                      Center are not being regularly reviewed and had not been updated to reflect
                                      current users. Specifically, we found that ERS’ computer access lists
                                      contained enabled user IDs for separated personnel, disabled user IDs,
                                      duplicate IDs, user names that had not been changed, and inaccurate and
                                      incomplete information maintained for non-Federal employees.

                                      Departmental guidance20 requires security staff to remove employee user
                                      IDs and passwords when the employee is no longer with the agency. A
                                      formal procedure should be established for notification of the security
                                      officers by the agency personnel office of all retirements or other personnel
                                      separations. When there is a change of a contractor that uses the system, all
                                      user IDs and passwords on the system must be changed as soon as the
                                      contractor’s services are terminated. Security staff must maintain files of
                                      users, including names, office addresses, and telephone numbers.

                                      ERS’ representative for ISD explained that it was difficult to maintain
                                      computer access lists since ISD was not always informed and did not always
                                      receive the separating employee’s checklist. ERS’ procedure for separating
                                      employees instructs supervisors to circulate a separating employee’s
                                      checklist to ISD for removal of the employee’s access to agency computer
                                      systems. Furthermore, ISD also did not receive the list of current and
                                      separated contractors and non-Federal employees. ERS should strengthen its
                                      internal controls to ensure that all computer access lists are updated and
                                      routed to ISD, and ISD is notified and receives the separating employees’
                                      checklists when employees terminate their employment.

                                      We also reviewed ERS user profiles and identified 65 users that had shared
                                      or generic accounts. Of these accounts, 4 permitted users to access sensitive
                                      data, and the remaining 61 accounts allowed access only to standard
                                      software packages. Departmental guidance20 states issuance of group
                                      user IDs and passwords and the sharing of the same are not permitted.

20
     DM 3140-1.6, Management ADP Security Manual, dated July 19, 1984.


USDA/OIG-A/14099-1-Te                                                                                      Page 23
                    When we inquired into the use of these accounts, ERS staff stated that they
                    were needed for a special project related to homeland security.
                    ERS LAN staff also stated that they were in the process of reviewing shared
                    and generic accounts and disabling or deleting them. We concluded that
                    ERS should establish formal access authorization procedures for periodic
                    review and maintenance of computer access accounts, including review of
                    access logs by management, independent of the security function.

                    In regard to remote access, our review disclosed that ERS had not reviewed
                    its security controls in that area to determine if they were adequate.
                    Although ERS justified, documented, and approved requests according to
                    NIST guidance,14 it had not periodically reviewed controls over remote
                    access. At the time of our review, remote users could access ERS’ network
                    through three methods, but only one of those methods was approved by
                    ERS for users handling the agency’s sensitive data. Data transmitted
                    through the other two methods is either not encrypted or secure and could
                    permit unauthorized access. However, we found that some users who
                    handled sensitive data could use unapproved methods for remote access. For
                    example, some users who are authorized to handle sensitive data on one of
                    its systems, such as farm income and social security numbers, also had the
                    capability to access this data through unapproved methods. We concluded
                    that ERS should periodically review its list of remote access users to ensure
                    that it grants them only the appropriate access.

                    Finally, we reviewed ERS’ network account policy settings and found that
                    the parameters established for password uniqueness and logon attempts did
                    not meet established guidelines. According to OCIO guidance,15 systems
                    shall not allow reuse of a previously used password until after five different
                    passwords have been used. Departmental guidelines20 require that access to
                    the system be rejected after three bad logon attempts.

                    Although the LAN staff told us that they met regularly to discuss security
                    and had agreed to set password history to 3, and bad logon attempts to 5,
                    our review of ERS network account policy settings found the parameter for
                    password history set to 3 and bad logon attempts set to 10. The LAN staff
                    did not know when the parameter for bad logon attempts was set at 10.

                    We concluded that ERS should establish guidelines to periodically review its
                    network account policy settings, as well as user access and user profiles.

                    Physical Access

                    Our assessment of ERS’ physical access controls disclosed improper
                    procedures, which posed a threat to security of the LAN room and backup
                    tapes.



USDA/OIG-A/14099-1-Te                                                                    Page 24
                                       We found that ERS controls access to the LAN room by issuing electronic
                                       security keys to employees and contractors. OCIO guidance21 states that
                                       only Department personnel and authorized contractors having an ongoing
                                       recurring business need will be given unescorted access to the IT restricted
                                       space. Further, cleaning staff, maintenance personnel, and visitors shall be
                                       escorted at all times by Department or permanent contractors. ERS provided
                                       us a list containing the names of individuals who had been issued electronic
                                       security keys for access to the LAN room and assisted us in reviewing it.
                                       The list included multiple individuals from the cleaning staff and one other
                                       employee who should not have had access. We concluded that ERS should
                                       not issue electronic security keys to cleaning staff, maintenance personnel,
                                       and visitors for physical access to sensitive areas.

                                       Furthermore, ERS did not maintain logs for documenting visitors to
                                       sensitive areas or for recording the transfer of LAN backup tapes to and
                                       from offsite storage. NIST6 and OCIO21 guidance state that logs can include
                                       the times and dates of transfers, names and signatures of individuals
                                       involved, and other relevant information. By maintaining physical access
                                       control logs for sensitive areas and backup tapes, ERS can protect its
                                       computer resources from unauthorized access and hold authorized
                                       individuals accountable for their actions.

                                       We tested ERS’ physical access controls by requesting entry to the
                                       LAN room and by accompanying an ERS employee to deposit LAN backup
                                       tapes at the offsite storage facility. We did not have to sign a log when we
                                       toured the LAN room, nor did the ERS employee sign a log to track the
                                       movement of the LAN backup tapes. We concluded that ERS should escort
                                       all visitors to the LAN room and other sensitive areas and require visitors to
                                       sign a log upon entering and exiting the facility.

                                       Logical controls alone cannot protect the integrity and confidentiality of
                                       sensitive files. For this reason, it is important that ERS establish formal
                                       procedures to ensure that physical access to the LAN room and backup tapes
                                       are controlled. ERS should also conduct periodic physical access reviews to
                                       determine if controls are effective in preventing unauthorized access to
                                       computer resources.




21
     OCIO CS-05, Cyber Security Guidance on Physical Security in USDA IT Restricted Space, dated November 28, 2001.


USDA/OIG-A/14099-1-Te                                                                                                 Page 25
Recommendation No. 14

                    Establish and implement formal procedures and controls for periodic
                    reviews of logical and physical access controls to determine if controls are
                    up to date and functioning as designed.

                    Agency Response. ERS concurs with this recommendation. By
                    January 1, 2005, ERS will conduct quarterly reviews of its logical and
                    physical access controls to include enforcing existing procedures in
                    notifying security staff when employees or contractors no longer require
                    system access. The procedure will include a review process by the Chief
                    Information Officer and agency Data Coordinators to judge the adequacy of
                    the process. The review will use the agency’s e-mail address book to
                    provide information on current status of employees, their room numbers, and
                    phone numbers.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with a copy of its written formal
                    procedures developed for the quarterly review process of logical and
                    physical access controls.

Recommendation No. 15

                    Establish and implement internal control procedures to ensure that all
                    computer access lists are updated and routed to ISD, and that ISD is notified
                    and receives a separating employees’ checklist when employees terminate
                    their employment.

                    Agency Response. ERS concurs with this recommendation. By
                    July 1, 2004, ERS will review the existing procedure for clearing employees
                    as they depart the agency. The review will add requirements for non-Federal
                    employees and contractors. The review will focus on creating assurances
                    that policy is being followed and that ISD is receiving proper notification.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with a copy of its written procedures
                    including controls to ensure that access lists are updated and routed to ISD,
                    and that ISD is notified when employees terminate their employment.




USDA/OIG-A/14099-1-Te                                                                    Page 26
Recommendation No. 16

                    Establish and implement formal access authorization procedures to include
                    controls for periodic review and maintenance of computer access accounts,
                    including review of computer access lists, LAN account policy settings, and
                    access logs.

                    Agency Response. ERS concurs with this recommendation. This is
                    similar in nature to Recommendation No. 10. The agency response there
                    should cover this recommendation as well.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD with a copy of its written procedure,
                    including controls detailing the steps security personnel are to follow in
                    authorizing access and in performing periodic reviews of access accounts to
                    ensure that access granted to employees is appropriate for their assigned
                    duties.

Recommendation No. 17

                    Establish and implement formal physical access control procedures for
                    logging visitor access to the LAN room and tracking the location of backup
                    tapes.

                    Agency Response. ERS concurs with this recommendation. ERS has
                    created a logbook to document physical access to the LAN room and has
                    created logs to track the location and movement of backup tapes.

                    OIG Position. We accept the ERS management decision. For final action,
                    ERS needs to provide OCFO/PAD a copy of the logbooks created to
                    document physical access to the LAN room and to document the movement
                    of backup tapes.




USDA/OIG-A/14099-1-Te                                                                  Page 27
Scope and Methodology
                   We selected ERS as part of a nationwide review of eight USDA agencies
                   with major computer systems.        Audit work was performed at the
                   ERS National Office located in Washington, D.C. We reviewed controls
                   over the agency’s computer systems to ensure the integrity of its information
                   security program. Our fieldwork was performed during and for the period
                   October 2002 through June 2003.

                   To accomplish the audit objectives, we performed the following steps.

                    •   Tested ERS’ security programs, including both physical and logical
                        access controls, by analyzing records and controls established by the
                        agency to protect its computer systems.

                    •   Reviewed and compared the controls ERS had established to protect its
                        IT resources with the requirements of the Computer Security Act of
                        1987, Federal regulations, departmental regulations and manuals, and
                        other sources.

                    •   Interviewed ERS officials responsible for managing the agency’s
                        computer systems.

                    •   Referred to Government policies such as Presidential Decision
                        Directive 63 and used commercial, off-the-shelf software products to
                        scan 103 ERS critical network components for vulnerabilities.

                   This audit was conducted in accordance with generally accepted Government
                   auditing standards. Therefore, the audit included tests of program and
                   accounting records considered necessary to meet the audit objectives.




USDA/OIG-A/14099-1-Te                                                                   Page 28
Exhibit A – Agency Response




USDA/OIG-A/14099-1-Te         Page 29
USDA/OIG-A/14099-1-Te   Page 30
USDA/OIG-A/14099-1-Te   Page 31
USDA/OIG-A/14099-1-Te   Page 32
USDA/OIG-A/14099-1-Te   Page 33
